                                                                         EMPLOYMENT AND TRAINING
                                                                         ADMINISTRATION
U.S. Department of Labor
                           Office of Inspector General—Office of Audit




                                                                         PERFORMANCE AUDIT OF KENTUCKIANAWORKS’
                                                                         COMPETITIVE AND FORMULA WELFARE-TO-WORK GRANTS




                                                                                                   Date Issued: March 30, 2007
                                                                                                   Report Number: 04-07-001-03-386
U.S. Department of Labor                            March 2007
Office of Inspector General
Office of Audit                                     Performance Audit of
                                                    KentuckianaWorks’ Competitive and
                                                    Formula Welfare-to-Work Grants
BRIEFLY…                                            WHAT OIG FOUND
Highlights of Report Number 04-07-001-03-386,
to the Assistant Secretary for Employment and       Our audit found that KentuckianaWorks did not
Training                                            adequately manage its WtW competitive grant
                                                    funds and did not submit accurate and reliable
WHY READ THE REPORT                                 participant data in its Quarterly Financial Status
                                                    Reports (QFSR). We questioned $3,166,933 of
Welfare-to-Work (WtW) legislation passed in         costs related to contracts awarded by
August 1997 authorized the Secretary of Labor       KentuckianaWorks without the required full and
to provide $3 billion in WtW grants. Formula        open competition in the bid process. We
grants were provided to States and competitive      questioned $2,376,432 of these same costs
grants were awarded directly to local and           because KentuckianaWorks did not ensure
community-based organizations. These grants         costs claimed by four of its grant partners were
were designed to aid welfare recipients with the    necessary and reasonable. We also found that
least skills, education, employment experience      ETA did not provide effective oversight of
and who lived in high poverty areas. This report    KentuckianaWorks’ management of grant funds.
discusses whether KentuckianaWorks                  Finally, we found that KentuckianaWorks over-
adequately managed WtW grant funds and              reported the number of participants served, the
complied with participant reporting requirements.   number of participants retained in unsubsidized
                                                    employment for 6 months, and total participants’
WHY OIG DID THE AUDIT                               wage gains.

We conducted a performance audit of the             WHAT OIG RECOMMENDED
$7,240,468 of WtW competitive and formula
grant funds awarded to KentuckianaWorks             We recommended that the Assistant Secretary
during the period October 1, 1998, through          for Employment and Training:
June 30, 2002. The purpose of our audit was to
determine if KentuckianaWorks complied with         •   Recover questioned costs of $3,166,933.
regulatory requirements for the WtW grants in
the areas of financial management and               •   Provide effective monitoring oversight to
participant reporting.                                  ensure that KentuckianaWorks reports
                                                        accurate and reliable participant
READ THE FULL REPORT                                    performance data for any current or future
                                                        ETA grants.
To view the report, including the scope,
                                                    In its response to the draft report,
methodology, and full agency response, go to:
                                                    KentuckianaWorks strongly disagreed with our
                                                    findings and recommendations.
http://www.oig.dol.gov/public/reports/oa/2007/04
-07-001-03-386
                                                                     Performance Audit of KentuckianaWorks
                                                              Competitive and Formula Welfare-to-Work Grants




Table of Contents
                                                                                                                     Page

EXECUTIVE SUMMARY .............................................................................................. 1

ASSISTANT INSPECTOR GENERAL’S REPORT ...................................................... 5

FINDINGS AND RESULTS

    KentuckianaWorks Did Not Comply with Regulatory Requirements to
    Conduct Full and Open Competition.................................................................. 6

    KentuckianaWorks Did Not Ensure Costs Claimed by Four of its Grant
    Partners Were Necessary and Reasonable ....................................................... 8

    ETA Did Not Provide Effective Oversight of KentuckianaWorks’
    Management of Grant Funds .............................................................................. 14

    KentuckianaWorks’ June 30, 2002, QFSR Performance Data Were
    Inaccurately Reported ......................................................................................... 20

EXHIBITS… ................................................................................................................ 25

A. Schedule of Questioned Costs --
   Improper Procurement Practices ...................................................................... 27

B. Schedule of Questioned Costs --
   Contracts with Excessive or Unnecessary Costs ............................................. 29

C. Statistical Projection Table for KentuckianaWorks’
   Participant Performance Reporting.................................................................... 31


APPENDICES ............................................................................................................. 33

A. Background.......................................................................................................... 35

B. Objective, Scope, Methodology and Criteria..................................................... 37

C. Acronyms and Abbreviations ............................................................................. 41

D. Auditee Response ............................................................................................... 43


U.S. Department of Labor – Office of Inspector General
Report No: 04-07-001-03-386                                                                                              i
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




ii                                     U.S. Department of Labor - Office of Inspector General
                                                                  Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants



EXECUTIVE SUMMARY
The Welfare-to-Work (WtW) legislation passed in August 1997 authorized the Secretary
of Labor to provide $3 billion in WtW grants to state and local communities. These
grants were intended to serve welfare recipients with the least skills, education,
employment experience and who lived in high poverty areas.

The Office of Inspector General conducted a performance audit of the $7,240,468
Federally funded WtW grants awarded to the Greater Louisville Workforce Investment
Board, a government entity doing business as KentuckianaWorks. The audit scope
covered the period from October 1, 1998, through June 30, 2002.

Our audit objective was to determine if KentuckianaWorks complied with regulatory
requirements for WtW grants in the areas of financial management and participant
reporting requirements. To accomplish this objective, we designed our audit tests to
answer the following questions:

   1. Did KentuckianaWorks adequately manage its WtW grant funds?

   2. Did KentuckianWorks comply with participant reporting requirements by
      submitting accurate and reliable performance reports?

Results

   1. KentuckianaWorks did not adequately manage its WtW grant funds.
       KentuckianaWorks did not conduct full and open competitions when awarding 33
       contracts to grant partners of its WtW competitive grant. As a result, we question
       $3,166,933, the total expenditure amount of the 33 contracts net of supportive
       service costs.

       We questioned $2,376,432 of these same costs because KentuckianaWorks did
       not ensure costs claimed by four of its grant partners were necessary and
       reasonable, as required by the Office of Management and Budget Circular A-87.
       The questioned costs totaling $2,376,432 resulted from the following payments to
       the grant partners:

           • $1,375,940 paid to Career Resources, Inc. (CRI) despite the fact that CRI
              only served 10 percent of the participants it contracted to serve.

           • $397,687 paid to the Jefferson County Public Schools Department of
              Education and $267,805 paid to Seven Counties Services for services
              provided free of charge to the general public.



U.S. Department of Labor – Office of Inspector General
                                                                                            1
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

          •   $335,000 paid to the Transit Authority of River City for night transportation
              services with no evidence that WtW participants used the services and
              without conducting a cost benefit analysis to determine the benefits to
              WtW participants.

    2. The Employment and Training Administration (ETA) did not provide effective
       oversight of KentuckianaWorks’ management of grant funds.

    3. KentuckianaWorks did not comply with participant reporting requirements to
       submit accurate and reliable performance reports. Specifically,
       KentuckianaWorks over-reported:

          •   the number of participants served;

          •   the number of participants retained in unsubsidized employment for 6
              months; and

          •   the total participants’ wage gains.

Auditee Response

In response to the draft report, officials from KentuckianaWorks disagreed with the
report’s findings and recommendations. They stated that the report was not factually
correct, omitted key facts, and was unrealistic in recommending the recovery of over
$3 million from those who managed the grant to the best of their abilities under the
direct supervision of ETA.

KentuckianaWorks’ officials stated that they relied on information provided by ETA
indicating that if grant partners were identified as providing specific services in the grant
application, then competitive procurement was not required. Regarding the finding that
KentuckianaWorks did not ensure costs claimed by four of its grant partners were
reasonable and necessary, KentuckianaWorks’ officials stated that any findings
resulting from Federal and state monitoring efforts had been quickly resolved with
corrective action. They noted that ETA conducted performance reviews of the grant
and repeatedly approved plans and sanctioned their efforts. KentuckianaWorks’
officials also disagreed with the finding that participants were incorrectly reported as
served because they were not enrolled in a post-employment activity or did not receive
any job retention services. KentuckianaWorks’ officials stated that intensive case
management services qualified as post-employment or job retention services.

KentuckianaWorks’ response is included in its entirety in Appendix D.




2                                       U.S. Department of Labor - Office of Inspector General
                                                                   Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

OIG Conclusion

We considered KentuckianaWorks’ response in its entirety and found no additional
information was provided that materially affected the report. Therefore, the report
findings and recommendations remain unchanged. The report’s recommendations will
be resolved during ETA’s formal audit resolution process.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   1. Recover questioned costs of $3,166,933, which represents the total expenditure
      amount, net of supportive services, for the contracts for which KentuckianaWorks
      did not conduct an open and competitive award process.

   2. Recover questioned costs of $2,376,432 for unnecessary and unreasonable
      costs incurred by four of KentuckianaWorks’ WtW competitive grant service
      providers.

Although recommendations 1 and 2 relate to separate findings, ETA must consider the
amount of questioned costs linked to these recommendations concurrently to avoid any
recovery of duplicate questioned costs. See Exhibits A and B for Schedules of
Questioned Costs.

   3. Provide effective monitoring oversight to ensure that KentuckianaWorks reports
      accurate and reliable participant performance data for any current or future ETA
      grants.




U.S. Department of Labor – Office of Inspector General
                                                                                            3
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




4                                      U.S. Department of Labor - Office of Inspector General
                                                                  Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




                          Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for
 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We conducted a performance audit of $7,240,468 of Welfare-to-Work (WtW)
competitive and formula grants awarded to KentuckianaWorks during the period
October 1, 1998 through June 30, 2002. The purpose of the grants was to provide post-
employment and job retention services necessary for WtW participants to sustain lasting
employment.

Our audit objective was to determine if KentuckianaWorks complied with regulatory
requirements for WtW grants in the areas of financial management and participant
reporting requirements. To accomplish this objective, we designed our audit tests to
answer the following questions:

   1. Did KentuckianaWorks adequately manage its WtW grant funds?

   2. Did KentuckianaWorks comply with participant reporting requirements by
      submitting accurate and reliable performance reports?

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objective, scope, methodology, and
criteria are detailed in Appendix B.




U.S. Department of Labor – Office of Inspector General
                                                                                            5
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

FINDINGS AND RESULTS


1. Did KentuckianaWorks adequately manage its WtW grant funds?


KentuckianaWorks did not adequately manage its WtW grant funds. During Fiscal
Year 1998, KentuckianaWorks received WtW grant funds totaling $7,240,468
($2,240,570 of formula grant funds passed through from the Commonwealth of
Kentucky and a $4,999,898 competitive grant from ETA). KentuckianaWorks did not
adhere to Federal regulations for its WtW competitive grant in the areas of procurement
and contract management, and did not meet the standards for internal controls and
allowable costs, which are key components of an effective financial management
system. The Code of Federal Regulations (CFR) 29 CFR 97.20 (Standards for
Financial Management Systems), states that grantees and subgrantees must have an
adequate financial management system that includes internal and management controls
necessary to ensure grant fund expenditures are allowable and authorized.

We questioned $3,166,933 in costs related to KentuckianaWorks’ WtW competitive
grants. Specifically, we found that KentuckianaWorks did not comply with regulatory
requirements to conduct full and open competition when it awarded 33 contracts under
its WtW competitive grant (Finding 1). A summary of questioned costs related to these
contracts is provided in Exhibit A. 1

We questioned $2,376,432 of those same costs because KentuckianaWorks did not
ensure costs claimed by four of its grant partners were necessary and reasonable, as
required by the Office of Management and Budget (OMB) Circular A-87 (Finding 2a –
2d). A summary of questioned costs related to these contracts is provided in Exhibit B.

We also found that ETA did not provide effective oversight of KentuckianaWorks’
management of grant funds (Finding 3).


Finding 1 - KentuckianaWorks did not comply with regulatory requirements to
conduct full and open competition. KentuckianaWorks did not conduct full and open
competition required by Federal regulations when it awarded 33 contracts to grant
partners of its WtW competitive grant. None of the contract files we reviewed contained
evidence that a competitive procurement process was followed. Consequently, we
question $3,166,933, the total expenditure amount of the contracts (net of $203,577
expended directly from the resource bank to participants for supportive services, which
is not questioned). Exhibit A lists these contracts, their associated expenditures, and
identifies the contracts that included supportive services not questioned.

1
    Exhibit A lists 28 of the 33 contracts; the remaining 5 contracts had no associated expenditures.

6                                                U.S. Department of Labor - Office of Inspector General
                                                                            Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants


The competitive grant project synopsis narrative states that grant funds would be
coordinated with Temporary Assistance for Needy Families, Job Training Partnership
Act, WtW formula grant funds, and other community resources. It further provides that
services would be procured through a competitive process. Additionally, within the
grant agreement, KentuckianaWorks provided assurance that it would fully comply with
Federal procurement regulations at 29 CFR 97, including regulations at 29 CFR 97.36
(c) (Competition), which state:

       All procurement transactions will be conducted in a manner providing full
       and open competition consistent with the standards of Sec. 97.36.

Federal procurement regulations, as well as WtW competitive grant guidelines, mandate
competitive procurement in selecting contractors to provide participant services. The
regulations stress that proper procurement practices may help grantees and sub-
grantees avoid unnecessary and duplicative items, and purchase goods and services at
an economical and reasonable price.

KentuckianaWorks’ grant partners were included in the WtW competitive grant
application as service providers. KentuckianaWorks’ management stated that inclusion
of service providers in the competitive grant application constituted ETA’s approval of
their selection. However, inclusion of service providers in the grant application does not
relieve the grantee from following Federal requirements, its own competitive
procurement policy or ETA’s instructions. Procurement by noncompetitive means can
be allowed when any one of the following four rules pursuant to 29 CFR 97.36(d)(4) are
met: 1) an item is available from only one source; 2) public emergency; 3) authorization
of noncompetitive proposals; or 4) after the solicitation, competition is considered
inadequate. Additionally, a cost analysis is required. KentuckianaWorks did not meet
the aforementioned requirements.

ETA’ official guidance on this subject was published in Training and Employment
Guidance Letter 15-01 on March 22, 2002:

Question:

       If in preparing its grant proposal, an applicant for a competitive grant gets
       commitments from various partners to provide certain activities/services
       and names those partners in its grant application, is it then necessary for
       the applicant to go through a procurement process to select the providers
       subsequent to grant award?

ETA Response:

       ETA’s selection of an application does not constitute a blanket
       endorsement of the listed partners/providers or the process by which they
       were selected. ETA in its evaluation and selection process assumes that


U.S. Department of Labor – Office of Inspector General
                                                                                            7
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

       the partners/providers listed in the applicant’s submission were or will be
       selected in accordance with the applicable procurement rules and other
       requirements. Listing the names of the partners/providers in its grant
       application does not relieve an applicant from compliance with these
       requirements.

Federal regulations (29 CFR 97.36) and ETA’s official policy require the need for full
and open competition despite grant partners being approved on the grant application.
Because KentuckianaWorks circumvented Federal required procurement processes,
the requisite assurance of the highest quality of services at a fair price was not assured
for contractors’ services. As a result, we question $3,166,933, the total expended by
KentuckianaWorks for all 33 contractors.


Finding 2 – KentuckianaWorks did not ensure costs claimed by four of its grant
partners were necessary and reasonable. We question a total of $2,376,432 related
to financial and procurement compliance, as well as program delivery problems, with
four service providers. The questioned costs resulted because KentuckianaWorks did
not ensure that key standards for an effective financial management system were met
as required by 29 CFR 97.20.

In particular, KentuckianaWorks’ officials did not exercise good management control
over WtW contracts. Their financial monitoring was limited to a desk review of invoices
submitted for allowable expenses. Programmatic monitoring of subcontractors
consisted of a review of participant files to ensure that the participants were in the
program and that the files contained the required paper work per their policy and
procedures. The monitoring did not include reviewing the subcontractors’ performance
of the scope of work listed per the contract or evaluating the effectiveness of the
contracts in meeting program goals. KentuckianaWorks renewed all major contracts
without considering the level of performance under the original contracts.

OMB Circular A-87, Attachment A, Section C.1. Factors affecting allowability of costs,
provides basic guidelines for determining the allowability of costs. To be allowable
under Federal awards, costs must meet the following general criterion:

       a. Be necessary and reasonable for proper and efficient performance and
       administration of Federal awards.

OMB Circular A-87, Attachment A, Section C.2 provides that a cost is reasonable if it
does not exceed that which would be incurred by a prudent person in similar
circumstances. In determining the reasonableness of a given cost, consideration
should be given to:




8                                      U.S. Department of Labor - Office of Inspector General
                                                                  Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

       a. Whether the cost is of a type generally recognized as ordinary and
       necessary for the operation of the governmental unit or the performance of
       the Federal award.

We determined the “Allowable Costs” standard was a common issue in all questioned
costs. This standard requires grantees and subgrantees to follow applicable OMB cost
principles, agency program regulations, and the terms of grant and subgrant
agreements to determine the reasonableness, allowability and allocability of costs. We
questioned costs because we deemed they were excessive for the services provided
and therefore unreasonable. With the exception of the issue in Finding 2c, a lack of
adequate internal controls was determined to be common to all other issues in Finding 2
of this report. The standard for “Internal Control” requires grantees and subgrantees to
maintain effective controls and accountability for all grant and subgrant cash, and to
ensure that grant funds are used solely for authorized purposes.

Finding 2a - Reimbursement of $1,375,940 to Career Resources, Inc. (CRI) to
provide case management services to custodial parents was unreasonable and
the services provided were inadequate. CRI is a private nonprofit corporation which
provides free services to job seekers through the Department of Labor (DOL) Workforce
Investment Act (WIA) program. KentuckianaWorks entered into a contract with CRI to
provide case management, post-employment, and job upgrade services to custodial
parents who met the eligibility requirements of the WtW program. The initial contract
period covered the period January 1, 1999 through June 30, 2001. The contract was
budgeted at $1,025,904 with an expected enrollment of 3,270 participants.

Total expenditures of $837,794 were incurred under the contract. CRI provided case
management services to 259 participants, significantly less than the 3,270 projected in
the budget. While the number of participants reported served was only 8 percent of the
proposed number, the cost incurred was 82 percent of the budgeted cost.

Despite the low number of participants served under the initial contract,
KentuckianaWorks awarded CRI another contract, without competition, in the amount of
$614,869 for the period July 1, 2001 through June 30, 2002. The second contract
required CRI to serve a minimum of 536 participants, including 516 carryover
participants who had been certified as WtW eligible and at least 20 new noncustodial
participants. Given CRI had reported serving 259 WtW participants during the period
January 1, 1999 through June 30, 2001, expectations that CRI would serve 536
participants under the new contract were unrealistic.

As with the initial contract, KentuckianaWorks awarded this second contract to CRI
without full and open competition or a cost benefit analysis. Similar to the initial
contract, the cost expended in relation to participants served was unreasonable.
Specifically, CRI was reimbursed $538,146 (87 percent of the award amount) for
administering the second contract through June 30, 2002, while only 68 new
participants were reported as served. Under the initial and follow-on contract, a total



U.S. Department of Labor – Office of Inspector General
                                                                                            9
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

327 participants, only 10 percent of the participants CRI was contracted to serve2 , were
reported as served at a cost of $1,375,940. We deem the cost to be unreasonable for
the number of participants served.

In addition to the excessive amount spent per participant, we conclude that services
received from CRI only indirectly related to post-employment services. Based on a
review of the custodial parent case files, case managers did not enroll participants in
post-employment activities, nor was there an indication they assisted participants to
receive job upgrades.

KentuckianaWorks’ management stated that they included intensive case management
as post-employment services when they modified their contract. We found that
“intensive case management services” were included in the contract; however, the
contract did not define the extent of services to be provided.

Based on a review of the case files for custodial parents, case files included basic
information regarding eligibility. In addition, case files contained case managers’ written
notes that documented the dates of contact and attempted contact with the participants.
Contact was made with participants primarily to determine what supportive services the
participants needed. If supportive services were needed, the clients were referred to
the resource bank 3 that incurred additional overhead to pay for the supportive services.
In many instances there was little or no contact with participants and participants were
not referred for post-employment or supportive services. To be effective, case
management activities must support the post-employment and retention services in
order to maintain the participants in employment.

Finding 2b - WtW funds in the amount of $397,687 were not expended effectively
by the Jefferson County Public Schools Department of Education. The Jefferson
County Public Schools Department of Adult Education was reimbursed $397,687 in
WtW funds for providing adult education training to WtW participants similar to training
offered free to citizens of Jefferson County. The Jefferson County Public Schools
Department of Adult Education offered comprehensive basic skills training, free of
charge, in more than 50 locations throughout Jefferson County. The choice of attending
day or evening classes made it accessible to Jefferson County citizens and the course
design allowed students to progress at their own pace. After the completion of training,
the County’s Department of Adult Education also offered free GED testing. For WtW
participants enrolled in employment activities (such as basic skills training, occupational
skill training, English as a Second Language, or mentoring), WtW would have paid the
2
  A total of 3,290 participants were expected to be served by CRI. This is the sum of 3,270 custodial
parents under the initial contract plus an additional 20 new noncustodial participants per the second
contract. Therefore, the actual number of participants served of 327 represents 10 percent of 3,290
expected participants.
3
  The resource bank was established by Jefferson County, Department of Human Services to disburse
funds to WtW participants for approved services. The resource bank funds covered short-term,
emergency financial payments to help facilitate job retention and career advancement.

10                                            U.S. Department of Labor - Office of Inspector General
                                                                       Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

cost of transportation to attend these free classes and provided childcare services for
participants while they attended classes.

Rather than provide participants with the means to attend these classes,
KentuckianaWorks entered into a contract with Jefferson County Public Schools to
provide a similar course. The course offered to WtW participants as an integral part of
their career plans was named “Customized Home-Based Computer Skills.” The training
encompassed loading software onto computers for both in-home and workplace
instructional use in order to upgrade basic academic skills, such as reading,
mathematics, and writing, in preparation for the GED test.

According to information provided by the KentuckianaWorks’ management, 61
participants were enrolled in the customized training. Forty-nine of the participants were
reported to have completed the customized training at a cost per completion of $8,116.
Five of the participants already had GEDs when entering the training, and only six
participants completed their GEDs after taking the training.

Based on our review of the contract, 79 percent of the charges were for agency
personnel. Three of the four staff members assigned to the initial contract were already
employed by Jefferson County Public Schools Department of Adult Education.

KentuckianaWorks’ management stated, “while it is accurate to state that the staff
assigned to administer this WtW program were already employed by the Board of
Education, KentuckianaWorks did not reimburse the Board of Education for 100 percent
of the salaries associated with these staff nor did the Board of Education staff spend
100 percent of their work time on WtW contracts.”

Based on the limited training results reported in relation to the cost incurred, and
because similar free services were available to the citizens of Jefferson County through
the Jefferson County Public School Department of Adult Education, we conclude that
WtW grant expenditures were not necessary or reasonable.

Finding 2c - KentuckianaWorks did not conduct an appropriate analysis of the
benefits to WtW participants prior to awarding contracts to the Transit Authority
of River City (TARC). KentuckianaWorks awarded two contracts totaling $335,000 to
TARC. The contracts required TARC to operate a bus route providing transportation
services to WtW participants working between the hours of 11:00 pm and 5:30 am. The
original contract was awarded to TARC for $300,000, with a 1-year extension for an
additional $35,000. The contract files did not support whether KentuckianaWorks
conducted an evaluation to determine if the services were needed, projected how many
participants would utilize the bus service, or considered other transportation options.

The scope of the program in the original contract was to increase the capacity of the
present transportation infrastructure by creating a night bus service throughout
Jefferson County. The night bus service would improve WtW participants’ ability to
connect with jobs in areas not served by regular bus routes.


U.S. Department of Labor – Office of Inspector General
                                                                                            11
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants


The contract also provided for personalized transportation between customers’
residences and worksites, with intermediate stops to accommodate child-care drop-offs
or pickups. In order to obtain this service, a customer had to complete a personalized
application. According to KentuckianaWorks’ response to the draft report, no
mechanisms existed for tracking the WtW participant applications for the night bus
service until July 1, 2002. Reports provided by KentuckianaWorks for the period July 1,
2002 through June 30, 2003, state that 203 total personalized applications were
received. Of the 203 personalized applications, only 39, or 19 percent, were submitted
by WtW participants. KentuckianaWorks provided no information to verify if the WtW
participants actually used the service or how many personalized trips were provided to
each participant. In reviewing a sample of 76 participant files, we did not identify any
participants utilizing the personalized transportation services.

In addition, based on our sample of 76 participants, only 14 participants received bus
passes or transportation assistance; none of the 14 participants had night jobs. We
conclude that although the night bus service may have benefited WtW participants, an
appropriate analysis of the cost versus benefit of this activity should have led
KentuckianaWorks to choose less costly alternative transportation methods.

KentuckianaWorks did not track participants who used the night bus service. Its
contracts with TARC required TARC to track additional night bus hours beyond existing
services and bill based on additional hours vehicles were used in operating the night
bus system. However, the contracts did not require TARC to track usage by WtW
participants.

KentuckianaWorks’ officials stated:

       . . . there was no mechanism for TARC to request riders to declare
       whether they were WtW participants when they got on the bus. Therefore,
       all 727 WtW participants could have potentially ridden the night bus
       service. . . .

Conversely, we conclude there may have been no WtW participants riding the bus at
night. Our review of participant files did not support that WtW participants used the
service and KentuckianaWorks could not provide any additional documentation to
support how many WtW participants used the service.

Finding 2d - KentuckianaWorks paid an excessive amount to Seven Counties
Services for services that were not adequately measured and were provided free
to citizens of the area. The Crisis and Information Center of Seven Counties Services
offered confidential 24-hour, 7-day-a-week telephone crisis services to the public free of
charge, including referral to other resources in the community. Despite the availability
of these free services, KentuckianaWorks entered into a noncompetitively awarded


12                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

contract with Seven Counties Services to operate a Crisis and Information Center for
WtW participants in need of emergency services and crisis intervention.

In total, Seven Counties Services was reimbursed $267,805 through three
noncompetitively awarded contracts with KentuckianaWorks. Reimbursements included
$222,278 in salaries and fringe benefits (including $41,610 to staff the crisis resource
line in the final contract). Other costs included telephone equipment and computer
purchases. Under the contract from October 1, 1998 through June 30, 2000, the
contracts provided for $10 per call relating to WtW participants.

The only identified performance measurement for evaluating WtW services was the
number of calls relating to WtW participants. Although the contracts for the first 30
months had budgets for up to 11,373 calls overall, the actual number of calls received
under these contracts was only 186. Based on the expenditures under the contracts,
had there been 11,373 calls, the cost per call would have been $16. However, based
on the 186 calls actually received, the average cost per call was $1,440.

The budget for the first contract provided for up to 3,304 calls during the initial 9-month
period beginning October 1998. In May 1999, the contract was extended to
March 31, 2000, with the budgeted number of calls reduced to 1,810. The contract was
further modified in March 2000, with a budget increase to $199,400 and the period
extended to June 30, 2000. The number of anticipated calls was projected to increase
to 3,242. However, through the 21 months of the contract, there were only 119 calls.
The total amount expended under this contract was $112,091.

Despite the fact that the expected volume of calls never materialized,
KentuckianaWorks entered into a larger noncompetitively awarded contract with Seven
Counties Services for the period July 1, 2000 through June 30, 2001. This $250,000
contract provided for service to both WtW and WIA participants. For this contract,
KentuckianaWorks was billed for only 67 calls. Total reimbursement under the contract
was $71,041.

After receiving only 67 calls the previous year, KentuckianaWorks entered into yet
another noncompetitively awarded contract with Seven Counties Services. The contract
amount was $100,000 for the period July 1, 2001 through June 30, 2002. This contract
did not provide a per call charge, but included a charge of $41,610 for providing access
to the crisis resource line and an additional charge of $100 per visit for face-to-face
interventions. An analysis of the final expenditure report shows there were no face-to-
face visits billed in the total charges of $84,673.

Based on a review of services provided to the citizens of Jefferson County through
Seven Counties Services, we conclude that WtW funds were not used effectively for
WtW participants by Seven Counties Services. WtW funds were used to pay salaries
for employees already employed by Seven Counties Services, as well as other
expenses associated with operating the crisis hotline, which already existed and
provided services free of charge to the citizens of the respective counties.


U.S. Department of Labor – Office of Inspector General
                                                                                            13
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




Finding 3 - ETA did not provide effective oversight of KentuckianaWorks’
management of grant funds. ETA did not reduce KentuckianaWorks’ competitive
grant award when it became apparent that the number of participants served fell
substantially below agreed upon goals. The grant award’s modification, effective July
2001, focused on determining the level of service to be provided by KentuckianaWorks.
However, ETA did not define the extent of services to be provided in order to
reasonably determine whether the modification should have included a funding
reduction. Not until July 2002, did ETA issue a monitoring report on KentuckianaWorks’
competitive grant operations. In the monitoring report, ETA finally requested a budget
reduction, but never followed through with the request. We conclude ETA’s monitoring
of KentuckianaWorks’ management of grant funds was ineffective.

KentuckianaWorks was awarded $4,999,898 in competitive WtW grant funds in July
1998. The competitive grant’s goal was to provide 4,000 participants with post-
employment and job retention services. Therefore, the original estimated cost per
participant was $1,250. The grant limited the pool of eligible participants to individuals
from Louisville/Jefferson County who were already employed.

As of March 31, 2001, the last quarter before the initial competitive grant expired,
KentuckianaWorks had expended $1,599,401 (32 percent) of the grant amount. Yet,
KentuckianaWorks had only served 335 participants (8 percent) of the proposed 4,000
participants. On average, KentuckianaWorks spent $4,774 per participant 4 compared
to the original estimated cost of $1,250.

KentuckianaWorks realized that the original application for the competitive grant
overestimated the number of participants to be served and formally requested a no-cost
modification to the competitive grant on May 23, 2001. Specifically, KentuckianaWorks
requested reducing the number of participants from 4,000 to 425, expanding the
geographic service area to include six additional counties surrounding the City of
Louisville, and extending the grant period to June 30, 2003. These steps illustrate the
difficulty KentuckianaWorks had finding eligible participants to serve.

Additionally, according to the grant modification’s request, KentuckianaWorks stated:

        Upon those findings and direction from our Grant Officer Technical
        Representative, we plan to focus program efforts on intensely serving
        eligible non-custodial parents, as well as intensely serving those
        participants in all eligible populations other than non-custodial who are

4
  In addition to the competitive funds, formula grant funds were also expended on these participants. The
number of participants to be served under the formula grant was established only at the State level, no
goal was set specifically for KentuckianaWorks. We, therefore, have limited our analysis in this finding to
the competitive grant.

14                                              U.S. Department of Labor - Office of Inspector General
                                                                         Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

       enrolled and currently being served as of May 25, 2001. . . . The
       additional time requested for grant extension to June 30, 2003, benefits
       the delivery of services to Welfare-to-Work participants by allowing a
       continuation of resources and services, in a more intense fashion. . . .

ETA was also aware that the number of participants served fell significantly short of the
expected number of participants. ETA approved the requested modifications, effective
July 8, 2001, except changed the revised participant goal to 1,500. This represents a
63 percent decrease from the original goal of 4,000 participants to be served. ETA took
steps to assist KentuckianaWorks in meeting a more realistic participant goal; however,
it did not take steps to reduce funding when the expected participant population failed to
materialize. Because the funding remained constant while the budgeted number of
participants decreased, the budgeted cost per participant increased to $3,333 after the
modification. This represents an increase of over 150 percent from the original award’s
cost per participant served.

The grant modification’s Statement of Work listed services to be provided by
KentuckianaWorks during the extension of WtW funding. Most of the services listed
were supportive services or training for participants. Therefore, the total of these
variable costs depended upon the needs of the participants or their interest in receiving
the training. KentuckianaWorks only had control of costs associated with two of the
services listed in the modified Statement of Work: Intensive Case Management, and
Drug and Alcohol Awareness Training for Case Managers and Participants’ Employers.
It is unlikely that the Drug and Alcohol Awareness Training would be a recurring cost.
ETA and KentuckianaWorks did not define or explain what was meant by “Intensive
Case Management” services.

KentuckianaWorks’ intentions to intensify services to existing participants failed to
materialize. ETA’s monitoring report dated July 10, 2002, 1 year after the modification
became effective, characterized KentuckianaWorks’ competitive grant as having serious
problems. Based on the files reviewed by ETA, there was no evidence of delivery of
services, intensive or otherwise. The ETA monitor noted there was no documentation
of referrals to job retention or other supportive services. The monitor could not
determine the activities provided by paid contractors.

ETA’s monitoring report also stated:

       Although the performance goals were decreased to 1,500, . . . there is
       also no indication that a revised budget was submitted or approved to
       reflect a decrease in funding due to the decrease in the total number of
       clients to be served.

KentuckianaWorks responded on August 30, 2002:

       . . . A revised budget starting with the date of award through the
       requested extension period . . . was submitted and approved for


U.S. Department of Labor – Office of Inspector General
                                                                                            15
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

       cumulative expenditures. Negotiations surrounding development of the
       current modification focused on a service level the Department would
       accept given the total amount of funding awarded. There was no
       communication between the grantee (KentuckianaWorks) and the
       Department that a reflective decrease in funding was being considered or
       was to be proposed.

Maintaining the original budget amount because KentuckianaWorks would provide
“intense” services is not justified. An increase in total variable costs associated with
supportive services or participant training would be unlikely, given the fact that the
number of participants to be served had been reduced 63 percent. Without a clear
understanding of the meaning of “Intensive Case Management” services, ETA could not
effectively determine the cost of providing these services. At the time of the
modification, ETA should have required KentuckianaWorks to submit a revised budget
with reduced funding amounts.

ETA did not request a reduced budget until 1 year prior to the grant’s expiration; 4 years
after KentuckianaWorks had been operating with the WtW funds. In the end,
KentuckianaWorks continued to operate with the original award amount of $4,999,898
despite having serious problems serving eligible WtW participants. This resulted in a
budgeted cost per participant of $3,333. The actual cost per participant for the
competitive grant was $4,034 using June 30, 2002, Quarterly Financial Status Report
(QFSR) data. 5

More timely and effective oversight by ETA of KentuckianaWorks’ budget and
operations could have prevented the excessive actual cost per participant.
Because the WtW program has expired, we have included no recommendations related
to ETA’s monitoring of the program.

Auditee Response

In response to the draft report, the Executive Director of KentuckianaWorks disagreed
with findings 1 and 2. He stated that the findings were not factually correct, omitted key
facts, and were unrealistic in recommending the recovery of over $3 million from those
who managed the grant to the best of their abilities under the direct supervision of ETA.

Regarding the finding that KentuckianaWorks did not comply with regulatory
requirements to conduct full and open competition, the Executive Director stated that if
grant partners were identified as providing specific services in the grant application,
then competitive procurement was not required. He stated that KentuckianaWorks
relied on information provided on ETA’s website of Questions and Answers, dated


5
  KentuckianaWorks reported in the June 30, 2002, QFSR cumulative expenditures of $2,932,807 with a
reported total participants served of 727; therefore, the cost per participant amount was $4,034.

16                                          U.S. Department of Labor - Office of Inspector General
                                                                     Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

September 3, 1998. According to the Executive Director, Question and Answer CG17
stated:

       CG 17. If in preparing its grant application, a competitive grantee gets
       commitments from various partners to provide certain of the grant
       activities/services and then actually names those partners (subrecipients)
       as the entity which will provide the service/activity in its grant application,
       is it then necessary for the grantee to go through a competitive
       procurement process to select the provider? (9/03/98)

       A. NO! ETA’s approval and funding of the grant application has the effect
       of approving the grantees (sic) selection of the named partner/subrecipient
       to provide the specified service/activity.

The Executive Director further stated that this guidance from ETA was issued after
KentuckianaWorks and other WtW grantees sought clarification on this issue.

Regarding the finding that KentuckianaWorks did not ensure costs claimed by four of its
grant partners were necessary and reasonable, the Executive Director stated that both
Federal and state representatives repeatedly monitored KentuckianaWorks and any
findings cited as a result of the monitoring were resolved with corrective action. The
Executive Director also stated that ETA conducted performance reviews of the grant
and repeatedly approved plans and sanctioned their efforts. In addition, the Executive
Director stated that the WtW grant was not structured as a performance-based contract
linking funding to performance. He further contended that ETA’s pressure to set
aggressive goals contributed to KentuckianaWorks’ inability to serve the number of
WtW customers originally targeted.

KentuckianaWorks’ response to the draft report is included in its entirety as Appendix D.

OIG Conclusion

We have considered KentuckianaWorks’ response to the draft report. Our conclusion is
as follows:

Finding 1 - We continue to question $3,166,933, the total expenditure amount of the
contracts, because KentuckianaWorks did not comply with regulatory requirements to
conduct full and open competition.

In its response to the draft report, KentuckianaWorks stated that it relied on information
provided on ETA’s website of Questions and Answers, dated September 3, 1998. This
guidance stated that it was not necessary to go through a competitive procurement
process if the partner/subrecipient had been named in its grant application. Although
ETA originally put out this guidance, ETA’s Questions and Answers publications contain
disclaimers stating that Questions and Answers guidance does not represent official



U.S. Department of Labor – Office of Inspector General
                                                                                            17
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

DOL policy. Questions and Answers provide information to the public until official policy
is released in the form of Training and Employment Guidance Letters.

ETA corrected its guidance on this issue on January 29, 1999, when it published a
Question and Answer on its WtW website stating that partners/providers listed in the
applicant’s grant proposal should be selected in accordance with applicable
procurement rules. This corrected guidance became official policy with the issuance of
TEGL 15-01, dated March 22, 2002. TEGL 15-01 required grant partners to
competitively bid for contracts.

We relied on the Federal regulations at 29 CFR 97.36 and ETA’s TEGL 15-01 in
reaching our conclusion that KentuckianaWorks did not comply with regulatory
requirements to conduct full and open competition in selecting contractors to provide
participant services. The ETA Grant Officer will make the final decision on the
allowability of the costs incurred by KentuckianaWorks’ contractors.

Finding 2 - We continue to question $2,376,432 related to financial and procurement
compliance, as well as program delivery problems, with four service providers. We
conclude KentuckianaWorks did not have adequate management controls necessary to
ensure grant fund expenditures were allowable and authorized. We do not contend that
the WtW grant with KentuckianaWorks was a performance-based contract. However,
all Federal grantees and subgrantees are required to follow applicable OMB cost
principles, agency program regulations, and the terms of grant and subgrant
agreements regarding the reasonableness, allowability and allocability of costs.

The report findings remain unchanged. The recommendations will be resolved during
DOL’s formal audit resolution process.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

     1. Recover questioned costs of $3,166,933 for the total reimbursements, net of
        supportive services, to WtW competitive grant partners because
        KentuckianaWorks did not adhere to a full and open competitive procurement
        process when awarding contracts to these service providers.

     2. Recover questioned costs of $2,376,432 for issues related to contracts awarded
        to four KentuckianaWorks’ WtW competitive grant partners. Specifically, the
        Assistant Secretary for ETA should recover:

        •     $1,375,940 of reimbursements to Career Resources, Inc., for providing
              case management services to custodial parents found to be excessive in
              cost and the services provided inadequate.


18                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants



       •      $397,687 of reimbursements to the Jefferson County Public School
              Department for providing training similar to adult education offered free to
              the public.

       •      $335,000 of excessive transportation costs reimbursed to Transit Authority
              of River City without conducting a cost benefit analysis to determine the
              benefits to WtW participants and without evidence to support WtW
              participant usage.

       •      $267,805 in excessive reimbursements to Seven Counties Services for
              services related to a crisis management center that were provided free of
              charge to citizens of the area.

Although recommendations 1 and 2 relate to separate findings, ETA must consider the
amount of questioned costs linked to these recommendations concurrently to avoid any
recovery of duplicate questioned costs. Both recommendations contain questioned
costs that are common to the contracts awarded to KentuckianaWorks’ WtW
competitive grant partners.




U.S. Department of Labor – Office of Inspector General
                                                                                            19
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

FINDINGS AND RESULTS


2. Did KentuckianaWorks comply with participant reporting requirements by
   submitting accurate and reliable performance reports?


KentuckianaWorks’ June 30, 2002, QFSR performance data were inaccurately
reported. Grant recipients were required to provide ETA with cumulative performance
data via their QFSR. We selected a random sample of 76 participant files to test the
accuracy and reliability of data reported on the QFSRs submitted to ETA.
KentuckianaWorks provided post-employment and job retention services to participants
on the condition that the participants were employed when receiving WtW services.
KentuckianaWorks reported serving 727 participants on its June 30, 2002, QFSR.
KentuckianaWorks also reported that 429 out of the 727 participants enrolled in the
WtW program were retained in unsubsidized employment for at least 6 months.

Performance data were inaccurately reported. Based on our projection of the results
of our testing of the 76 participant files in our sample, we are 90 percent confident that
between 204 and 331 of the 727 participants were incorrectly reported as served
because they were not enrolled in a post-employment activity or provided any job
retention services. See Exhibit C (Attribute A) for details of our testing results.

Post-employment services, according to the regulations cited at 20 CFR 645.220(e), are
provided after an individual is employed and include the following:

       •   Basic education skills training
       •   Occupational skills training
       •   English as a Second Language training
       •   Mentoring

KentuckianaWorks’ management stated that they provided intensive case management
services to participants and “post employment services included intensive case
management services.” In our opinion, “intensive case management” in and of itself
does not constitute a post-employment or retention service. This assertion is supported
by WtW regulations. The regulations at 20 CFR 645.220(h) provide, in part, that case
management may be incorporated in the design of allowable activities including, job
readiness, vocational education training, employment activities, post-employment
activities or job retention activities. The intent of case management was to facilitate
these activities rather than act as a stand alone service.

As a result, we conclude KentuckianaWorks overstated the number of participants who
were provided post-employment and retention services.


20                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                           Performance Audit of KentuckianaWorks
                                                    Competitive and Formula Welfare-to-Work Grants

Retention data were inaccurately reported or missing from files. Of the 76 cases
sampled, KentuckianaWorks claimed 41 of the participants had been retained in
unsubsidized employment for 6 months. We reviewed the 41 case files and found that
only 10 participants (24 percent) were accurately reported on the June 30, 2002,
formula and cumulative grants’ QFSR lines titled Retained 6 months (2 quarters) in
Unsubsidized Employment. We found that the remaining 31 participants’ employment
period did not meet the definition of 6 month retention or there was not adequate
documentation to substantiate that the participants had been retained in unsubsidized
employment for 6 months from the date of their first WtW service.

Based on our review of KentuckianaWorks’ case files, a participant’s retention date was
considered the first day of employment, even if the participant had not yet received WtW
services and entered the WtW program. KentuckianaWorks’ management stated, “they
believed the case files contained sufficient documentation to warrant substantiation of
job retention for 6 months."

KentuckianaWorks should have reported only those individuals who were employed in
unsubsidized employment upon program entry and had been retained 6 months after
program entry on the QFSR’s lines titled “Retained 6 months [2 quarters] in
Unsubsidized Employment.”

Further, based on our projection of the results of our sample, we are 90 percent
confident that between 270 and 401 of the 727 participants reported as served had
retention data missing. See Exhibit C (Attribute B) for details of our testing results.

Wage gain data were inaccurately reported. We found 31 of the 41 individuals (75
percent) reported on the QFSR’s lines titled Earnings Gained in 6 months (2 quarters)
Following Placement in Unsubsidized Employment did not meet the definition of
“Earnings Gained in 6 months Following Placement in Unsubsidized Employment.”
Based on information available in the case files, the participants were not employed 2
quarters following the base quarter in which they received their first WtW services.

KentuckianaWorks reported on its June 30, 2002 competitive grant QFSR that 429
participants had retained unsubsidized employment for 2 quarters. On the same QFSR,
KentuckianaWorks reported $4,569,280 as the total wage gain for participants
employed in the retention quarter. This amounts to an average wage gain of $10,651
between the base quarter and the retention quarter. 6 Of the 41 case files in our
sample, we found that 10 participants were accurately reported on the June 30, 2002,
formula and cumulative grants’ QFSR lines titled “Retained 6 months [2 quarters] in
Unsubsidized Employment.” These 10 participants had actual wage gains averaging
$446 in the retention quarter.


6
   The quarter that a participant is either placed in unsubsidized employment or enters the WtW program
with unsubsidized employment is considered the “base” quarter. ETA defines retention as “when an
eligible individual is placed in unsubsidized employment and remains in the workforce for six months with
earnings in the two consecutive quarters following the base quarter.”

U.S. Department of Labor – Office of Inspector General
                                                                                                       21
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

When determining the average wage gain, KentuckianaWorks calculated the base
quarter wages by multiplying the hourly rate by the number of hours worked per week.
This product was then multiplied by the number of weeks worked in the quarter.
KentuckianaWorks calculated wages in subsequent quarters by multiplying the hourly
rate by the number of hours worked in a week. This product was then multiplied by 12
weeks per quarter, not necessarily the number of weeks actually worked.

Consequently, even if no actual hourly wage increases happened for participants
between the base quarter and the retention quarter, KentuckianaWorks would most
likely overstate wage gains. This occurred because a full quarter of wages was
attributed to each participant if they worked during any portion of the retention quarter.
Therefore, wages were overstated for the retention quarter. Yet, wages for each
participant during the base quarter reflected the actual amount earned.

Errors in reporting participants served, participants retained, and wage gains distort the
program’s performance. Inaccurate performance reporting may lead to inappropriate
funding choices for this and future projects.


Auditee Response

In response to the draft report, the Executive Director of KentuckianaWorks disagreed
that participants were incorrectly reported as served because they were not enrolled in
a post-employment activity or did not receive any job retention services. He stated that
intensive case management services qualified as post-employment or job retention
services. The Executive Director also stated that the availability and consistency of
guidelines and technical assistance from the U. S. Department of Labor were lacking.
As a result, KentuckianaWorks had no choice but to record, track and report data to the
best of their abilities. According to the Executive Director, the receipt of technical
assistance well into the years of the grant did not allow for consistency and accuracy of
reporting over the entire grant period.

KentuckianaWorks’ response to the draft report is included in its entirety as Appendix D.


OIG Conclusion

The finding remains unchanged. We conclude that intensive case management in and
of itself does not qualify as post-employment services. Federal regulations, 20 CFR
645.220(h), state that case management may be incorporated in the design of allowable
activities, including job readiness, vocational education training, employment activities,
post-employment activities or job retention activities. The intent of case management is
to facilitate these activities rather than act as a stand-alone service.



22                                       U.S. Department of Labor - Office of Inspector General
                                                                  Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




Recommendation

We recommend the Assistant Secretary for Employment and Training:

   3. Provide effective monitoring oversight to ensure that KentuckianaWorks reports
      accurate and reliable participant performance data for any current or future ETA
      grants.




Elliot P. Lewis
May 30, 2006




U.S. Department of Labor – Office of Inspector General
                                                                                            23
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




Exhibits________________________




U.S. Department of Labor – Office of Inspector General
                                                                                            25
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                          Performance Audit of KentuckianaWorks
                                                   Competitive and Formula Welfare-to-Work Grants


                                                                                        Exhibit A

 SCHEDULE OF QUESTIONED COSTS -- IMPROPER PROCUREMENT PRACTICES
CONTRACT                                             QUESTIONED
 NUMBER            CONTRACTOR            EXPENDITURE    COSTS
501-127-1        Board of Education of Jefferson County                    $248,928       $248,928
511-045-0        Board of Education of Jefferson County                     120,320        120,320
510-045-0        Board of Education of Jefferson County                      28,439         28,439
98010            Career Resources, Inc.                                     837,794        837,794
501-044-1        Career Resources, Inc.                                     538,146        538,146
98030            Community Coordinated Child Care (4 C’s)                    47,797         47,797
99128            Consumer Credit Counseling                                   4,200          4,200
98118            Goodwill Industries                                         74,804         74,804
501-091-1        Jefferson County Dept. of Human Services                   241,366        241,366
501-091-0        Jefferson County Dept. of Human Services                   117,498        117,498
98018            Jefferson County Dept. of Human Services                    70,303         70,303
                 Jefferson County Dept. of Human Services
501-068-1                                                                   163,005     54,912 (**)
                     -- Resource Bank
                 Jefferson County Dept. of Human Services
501-068-0                                                                   115,686     33,361 (**)
                     -- Resource Bank
                 Jefferson County Dept. of Human Services
98108                -- Resource Bank                                        84,989     71,830 (**)
                 Jewish Family and Vocational Service
98078                of Louisville, Inc.                                     20,608         20,608
501-040-0        Legal Aid Society, Inc.                                      7,158          7,158
501-040-1        Legal Aid Society, Inc.                                      5,105          5,105
98038            Legal Aid Society, Inc.                                        105            105
                 Seven Counties Services, Inc.
501-048-1            d/b/a Jefferson Alcohol & Drug Abuse Ctr                28,758         28,758
                 Seven Counties Services, Inc.
501-048-0                                                                     7,840          7,840
                     d/b/a Jefferson Alcohol & Drug Abuse Ctr
                 Seven Counties Services, Inc.
501-093-0            d/b/a Jefferson Alcohol & Drug Abuse Ctr                 1,981          1,981
                 Seven Counties Services, Inc.
98088                d/b/a Jefferson Alcohol & Drug Abuse Ctr                  400             400
98098            Seven Counties Services, Inc.                              112,091        112,091
501-011-1        Seven Counties Services, Inc.                               84,673         84,673
501-011-0        Seven Counties Services, Inc.                               71,041         71,041
501-093-1        Seven Counties Services, Inc.                                2,475          2,475
98020            Transit Authority of River City (TARC)                     300,000        300,000
511-014-1        Transit Authority of River City (TARC)                      35,000         35,000
                                Total Amount Audited                   $3,370,510
                        Less: Supportive Services (**)                  (203,577)
                                   Total Questioned Costs                             $3,166,933

 ** Total supportive services = $108,093 + $82,325 + $13,159 = $203,577.




 U.S. Department of Labor – Office of Inspector General
                                                                                               27
 Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




                                                                                  Exhibit B

             SCHEDULE OF QUESTIONED COSTS -- CONTRACTS WITH
                   EXCESSIVE OR UNNECESSARY COSTS

                                                                           QUESTIONED
  CONTRACTOR                      ISSUE                  EXPENDITURES        COSTS

Career Resources        Excessive costs and
Services, Inc.          inadequate services for
                        providing case
                                                             $1,375,940          $1,375,940
                        management services
                        to custodial parents
(Finding 2a; page 8)
Jefferson County        Excessive and
Public Schools          unnecessary costs for
Department of           providing training
Education               similar to adult
                                                                397,687             397,687
                        education offered free
                        to citizens of Jefferson
                        County
(Finding 2b; page 9)
Transit Authority of    Excessive costs and
River City              lack of evidence of
                        WtW participant usage;
                        Contract awarded
                        without an appropriate                  335,000             335,000
                        analysis conducted to
                        determine the benefits
                        to WtW participants
(Finding 2c; page 10)
Seven Counties          Excessive costs for
Services                services that were not
                        adequately measured
                        and were offered at no                  267,805             267,805
                        cost to the public by
                        other county programs
(Finding 2d; page 11)


                                 TOTAL COSTS                 $ 2,376,432        $ 2,376,432




U.S. Department of Labor – Office of Inspector General
                                                                                            29
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




                                                                                 Exhibit C

         STATISTICAL PROJECTION TABLE FOR KENTUCKIANAWORKS’
                  PARTICIPANT PERFORMANCE REPORTING

  Attribute Type                                                  A                B

  Universe Size                                                       727              727

  Sample size                                                           76              76

  Occurrence found                                                      28              35

  Attribute point estimate                                        36.80%           46.10%

  Sampling error                                                    5.27%           5.45%

  Lower Limit - 90% Confidence                                    28.11%           37.11%

  Upper limit - 90% Confidence                                    45.49%           55.09%

  Projected Cases Lower Limit - 90% Confidence                        204              270

  Projected Cases Upper Limit - 90% Confidence                        331              401




Attribute type

A. The participant did not receive WtW post-employment or job retention services, but
was counted as being served.

B. Retention data missing.




U.S. Department of Labor – Office of Inspector General
                                                                                             31
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




Appendices




U.S. Department of Labor – Office of Inspector General
                                                                                            33
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants


                                                                                Appendix A

BACKGROUND


Welfare-to-Work (WtW) Grants
Provisions of the Balanced Budget Act of 1997 authorized the U.S. Department of Labor
(DOL) to award $3 billion in WtW grants to states and other organizations.

The WtW program assisted states and local communities by providing transitional
employment assistance to move hard-to-employ recipients of Temporary Assistance to
Needy Families (TANF) into lasting unsubsidized jobs and economic self-sufficiency.
Congress identified hard-to-employ TANF recipients as “welfare recipients who have the
least skills, education, employment experience and who live within high poverty areas.”

The Employment and Training Administration (ETA) provided states with WtW formula
grants. ETA also provided WtW funds directly to local and community-based
organizations through competitive grants. Interested organizations competed by
submitting proposals to serve WtW participants. ETA funded those proposals that
appeared to have the most merit.


Principal Grant Requirements and Criteria

Section 403 (a) (5) C (ii) of the Act required at least 70 percent of a WtW grant award
benefit hard-to-employ individuals. Not more than 30 percent of the funds could be
spent assisting individuals with characteristics associated with long-term welfare
dependence. In 1999, amendments of WtW legislation removed the requirement that
long-term TANF recipients must meet additional barriers for employment in order to be
eligible for WtW. Therefore, TANF recipients became eligible if they received
assistance for at least 30 months (whether consecutive or not) or if they were within 12
months of exhausting or had exhausted their TANF benefits. Noncustodial parents
were eligible if: (1) they were unemployed, underemployed, or had difficulty paying child
support obligations; (2) their minor children were eligible for, or received TANF benefits
(with a priority for parents with children who were long-term recipients), received TANF
benefits during the preceding year, or were eligible for, or received assistance under the
Food Stamp program, the Supplemental Security Income Program, Medicaid, or the
Children’s Health Insurance Program; and (3) the noncustodial parent entered into a
personal responsibility contract. Under the personal responsibility contract, the
noncustodial parent committed to cooperating in establishing paternity and paying child
support, participating in services to increase their employment and earnings and
support their children. Grantees were required to consult with domestic violence
organizations in developing projects to serve noncustodial parents.




U.S. Department of Labor – Office of Inspector General
                                                                                            35
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants

In addition to the general eligibility requirements, KentuckianaWorks required
participants to be employed upon entry into the program. Post-employment services
offered under the program included: 1) basic educational skills training; 2) occupational
skills training; 3) English as a Second Language training; and 4) mentoring. Services to
support job retention included, but were not limited to, transportation assistance,
substance abuse treatment (not medical treatment), child care assistance, emergency
or short-term housing assistance, and other supportive services.

Federal Regulations at 20 Code of Federal Regulations (CFR) 645.240 provided that
formula and direct competitive grant recipients must report financial and participant data
to DOL quarterly.


KentuckianaWorks Formula and Competitive Grants

During Fiscal Year 1998, the State of Kentucky was awarded $17,722,913 with a
matching requirement of $8,861,457, to administer the WtW formula grant. The State
passed through $2,240,570 to KentuckianaWorks 7 . For the passed-through amount,
the State assumed responsibility for all matching requirements. KentuckianaWorks also
received a WtW competitive grant in the amount of $4,999,898. The formula grant and
the competitive grant were combined and accounted for as a single funding stream of
$7,240,468.

The formula grant’s period of performance was July 1, 1998 through April 22, 2003.
The competitive grant period of performance was October 1, 1998 through
June 30, 2003. KentuckianaWorks merged funding from both grants and established a
combined WtW project. Under the formula grant, the State’s goal was to enroll 5,551
participants, with no specific goals required for the local boards. KentuckianaWorks
established an enrollment goal for the combined project of 4,000 participants. That goal
was modified to 1,500 participants in July 2001 without any reduction in funding.
Consequently, the proposed cost per participant was projected to be $3,333.

The purpose of KentuckianaWorks’ combined grants was to provide services to 4,000
participants already employed over a 2 ½-year period. KentuckianaWorks’ grant
application stated objective was to provide post-employment services and job retention
services along with support necessary for sustaining lasting employment.

KentuckianaWorks contracted with Career Resources Inc. (custodial parents), and
Jefferson County Department of Human Services (noncustodial parents) to provide
recruitment, case management and post-employment services to eligible WtW custodial
and noncustodial parents.


7
 KentuckianaWorks, a governmental agency within the metropolitan City of Louisville, is located at 410
West Chestnut Street, Suite 200; Louisville, Kentucky 40202.

36                                            U.S. Department of Labor - Office of Inspector General
                                                                       Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants


                                                                                Appendix B

OBJECTIVE, SCOPE, METHODOLOGY AND CRITERIA

Objective

Our audit objective was to determine if KentuckianaWorks complied with regulatory
requirements for WtW grants in the areas of financial management and participant
reporting requirements. To accomplish our objective, we designed our audit tests to
answer the following:

   1. Did KentuckianaWorks adequately manage its WtW grant funds?

   2. Did KentuckianaWorks comply with participant reporting requirements by
      submitting accurate and reliable performance reports?


Scope

We conducted a performance audit of KentuckianaWorks, the Greater Louisville
Workforce Investment Board, located in Louisville, Kentucky. Our audit period started
when KentuckianaWorks’ formula and competitive grants began operations on
October 1, 1998. Our audit included accrued expenditures totaling $5,374,588 and a
reported 727 participants served through June 30, 2002. Fieldwork began
October 29, 2002, and ended on May 30, 2006. Fieldwork was suspended during the
periods of September 2004 to March 2005 and again from June 2005 to January 2006
while the Office of Inspector General (OIG) addressed other priorities and demands on
the organization.

Our audit was conducted in accordance with Generally Accepted Government Auditing
Standards for performance audits and included such tests as we considered necessary
to satisfy the audit’s objective.


Methodology

To accomplish our objective, we:

        •   Reviewed prior single audit reports for the Commonwealth of Kentucky and
            the City of Louisville for the years ending June 30, 1999, June 30, 2000, and
            June 30, 2001.

        •   Relied on the single auditors' work, the extent of testing performed, and the
            amount of documentation examined to evaluate KentuckianaWorks’
            performance and determine if they complied with WtW legislation and
            regulations.

U.S. Department of Labor – Office of Inspector General
                                                                                            37
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants



       •   Reviewed ETA’s monitoring reports and technical guidance documents, as
           well as interviewed KentuckianaWorks’ staff to determine guidance provided
           by ETA.

       •   Reviewed management’s internal controls to determine their effectiveness
           and reliability for providing reasonable assurance that the operations were in
           compliance with applicable laws and regulations and that the financial and
           performance data reported were reliable.

       •   Reviewed and compared the Quarterly Financial Status Report (QFSR) dated
           June 30, 2002, with a participant listing generated by KentuckianaWorks to
           validate that all participants were included in the universe and the data were
           reliable.

       •   Reviewed the QFSRs to determine the total number of participants who had
           been classified as: Served; Employed in Unsubsidized Employment when
           Entering WtW; and Retained 6 Months in Unsubsidized Employment.

       •   Selected a random sample to determine if the unsubsidized employment
           classifications reported were accurate and participants met eligibility
           requirements.

       •   Reviewed a QFSR and tested financial transactions of the following costs:
           Administrative – Salary and Fringe Benefits Costs, Administrative – Other
           Direct Costs; Technology Costs; Participant Costs; and Contractor Costs. We
           selected a judgmental sample to determine if the costs reported were
           accurate and complied with OMB’s cost principles.

Participant Reporting Compliance: We used a statistical sampling method that
allowed us to project errors in a sample of participants to the universe. The OIG’s
statistician provided a random sample of 76 participants out of a universe of 727
Participants Served to test for participant performance reporting using a 90 percent
confidence level.

Each sample item was tested a) to determine if eligibility determination of participants
enrolled complied with WtW regulations, b) to determine if participants still enrolled in
the program should have been terminated, c) for adequate supporting documentation
per participant file, and d) for proper QFSR line item reporting. Participant file
documentation was reviewed and compared to KentuckianaWorks’ QFSR for support of
participants placed or retained in unsubsidized employment for 6 months. We also
reviewed documentation of wages per participant files and compared them to
KentuckianaWorks’ QFSR for participants retained in unsubsidized employment for 6
months.


38                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants


Financial Reporting Compliance: We selected financial transactions from
KentuckianaWorks accounting records and compared them to cash management
procedures used by KentuckianaWorks for accuracy, timeliness and compliance with
WtW regulations. KentuckianaWorks’ accounting system was reviewed to determine if
the data submitted to the Commonwealth of Kentucky for inclusion in the June 30, 2002,
QFSR were supported.

We conducted interviews with KentuckianaWorks’ officials and analyzed policies and
manuals in order to determine procurement compliance with Federal regulations and
OMB circulars. We identified 33 WtW competitive contracts in place between
October 1, 1998 and June 30, 2002. We reviewed 23 of these contracts and their
associated invoices to determine compliance with the applicable WtW regulations and
OMB circulars. The expenditures for the remaining 10 contracts were determined by
analyzing grant expense schedules prepared by KentuckianaWorks. Of these 10
contracts, only 5 had expenditures which totaled $109,927. Exhibit B lists the 28
contracts that had expenditures totaling $3,370,510.

We used an internal control survey to identify persons responsible for accounting
functions and to review KentuckianaWorks’ management of internal controls over
administrative and accounting functions.

We relied on computer generated data when performing our audit tests, and in
accordance with audit guidelines, we tested the validity and reliability of the data.


Criteria

Prior to January 11, 2001, the Interim Rule at 20 CFR 645 (WtW Grants) was used as a
reference for state and local projects. Effective January 11, 2001, the Interim Final Rule
was issued. Federal regulations at 29 CFR 97 (Uniform Administrative Requirements
for Grants and Cooperative Agreements to State and Local Governments) outline
procurement standards for government entities. The Standards for Financial
Management Systems as defined in Federal regulations at 29 CFR 97.20 require
grantees and subgrantees to have adequate financial management systems which
include internal and management controls that ensure grant expenditures are allowable
and authorized. OMB Circular A 87 (Cost Principles for State, Local and Indian Tribal
Governments) requires that expenses are reasonable and allowable.




U.S. Department of Labor – Office of Inspector General
                                                                                            39
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




                                                                                Appendix C

ACRONYMS AND ABBREVIATIONS


CFR           -       Code of Federal Regulations

CRI           -       Career Resources, Inc.

DOL           -       U.S. Department of Labor

ETA           -       Employment and Training Administration

OMB           -       Office of Management and Budget

QFSR          -       Quarterly Financial Status Report

Q&A           -       Questions and Answers

TANF          -       Temporary Assistance for Needy Families

TARC          -       Transit Authority of River City

TEGL                  Training and Employment Guidance Letter

WIA           -       Workforce Investment Act

WtW           -       Welfare-to-Work




U.S. Department of Labor – Office of Inspector General
                                                                                            41
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants

                                                                                Appendix D
AUDITEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General
                                                                                            43
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




44                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




U.S. Department of Labor – Office of Inspector General
                                                                                            45
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




46                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




U.S. Department of Labor – Office of Inspector General
                                                                                            47
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




48                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




U.S. Department of Labor – Office of Inspector General
                                                                                            49
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




50                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




U.S. Department of Labor – Office of Inspector General
                                                                                            51
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




52                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




U.S. Department of Labor – Office of Inspector General
                                                                                            53
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




54                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
                                                       Performance Audit of KentuckianaWorks
                                                Competitive and Formula Welfare-to-Work Grants




U.S. Department of Labor – Office of Inspector General
                                                                                            55
Report No: 04-07-001-03-386
Performance Audit of KentuckianaWorks’
Competitive and Formula Welfare-to-Work Grants




56                                      U.S. Department of Labor - Office of Inspector General
                                                                 Report No: 04-07-001-03-386
